<html>
<title> - PROTECTING THE ELECTRIC GRID: H.R. 2165, THE ``BULK POWER SYSTEM PROTECTION ACT OF 2009,'' AND H.R. 2195</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







   PROTECTING THE ELECTRIC GRID: H.R. 2165, THE ``BULK POWER SYSTEM 
                PROTECTION ACT OF 2009,'' AND H.R. 2195

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2009

                               __________

                           Serial No. 111-77




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-848                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       DENNIS HASTERT, Illinois
G.K. BUTTERFIELD, North Carolina          Ranking Member
CHARLIE MELANCON, Louisiana          RALPH M. HALL, Texas
BARON P. HILL, Indiana               FRED UPTON, Michigan
DORIS O. MATSUI, California          ED WHITFIELD, Kentucky
JERRY McNERNEY, California           JOHN SHIMKUS, Illinois
PETER WELCH, Vermont                 JOHN B. SHADEGG, Arizona
JOHN D. DINGELL, Michigan            STEVE BUYER, Indiana
RICK BOUCHER, Virginia               GREG WALDEN, Oregon
FRANK PALLONE, New Jersey            SUE WILKINS MYRICK, North Carolina
ELIOT L. ENGEL, New York             JOHN SULLIVAN, Oklahoma
GENE GREEN, Texas                    MICHAEL C. BURGESS, Texas
LOIS CAPPS, California
JANE HARMAN, California
CHARLES A. GONZALEZ, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia










                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachussetts, opening statement..............     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    32
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    33
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, prepared statement...................................    34
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................    35
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................    35
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    36
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................    37
Hon. John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    37
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................    52
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................    54

                               Witnesses

Hon. Bennie G. Thompson, a Representative in Congress from the 
  State of Mississippi, and Chairman, Committee on Homeland 
  Security
    Prepared statement...........................................    38
Hon. James R. Langevin, a Representative in Congress from the 
  State of Rhode Island, and Chairman, Subcommittee on Strategic 
  Forces, House Armed Services Committee
    Prepared statement...........................................    58
Joseph McClelland, Director, Office of Electric Reliability, 
  Federal Energy Regulatory Commission...........................    63
    Prepared statement...........................................    66
Patricia Hoffman, Principal Deputy Assistant Secretary, Office of 
  Electricity, U.S. Department of Energy.........................    78
    Prepared statement...........................................    81
    Answers to submitted questions...............................   166
Garry A. Brown, Chairman, New York Public Service Commission.....    88
    Prepared statement...........................................    91
David N. Cook, Vice President and General Counsel, North American 
  Electric Reliability Corporation...............................   110
    Prepared statement...........................................   112
    Answers to submitted questions...............................   169
John DiStasio, General Manager and CEO, Sacramento Municipal 
  Utility District...............................................   126
    Prepared statement...........................................   128

                           Submitted Material

H.R. 2165........................................................     3
H.R. 2195........................................................    19
Letter of November 10, 2009, from Mr. DiStasio to Subcommittee...   160

 
   PROTECTING THE ELECTRIC GRID: H.R. 2165, THE ``BULK POWER SYSTEM 
                PROTECTION ACT OF 2009,'' AND H.R. 2195

                              ----------                              


                       TUESDAY, OCTOBER 27, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:37 a.m., in 
Room 2322, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the subcommittee] presiding.
    Present: Representatives Markey, Inslee, Butterfield, 
Matsui, McNerney, Dingell, Baldwin, Matheson, Barrow, Upton, 
Stearns, Shimkus, Blunt, Pitts, Walden, Sullivan, Burgess, 
Scalise, and Barton (ex officio).
    Staff Present: Bruce Wolpe, Senior Advisor; John Jimison, 
Senior Counsel; Jeff Baran, Counsel; Caitlin Haberman, Special 
Assistant; Lindsay Vidal, Special Assistant; Earley Green, 
Chief Clerk; Mitchell Smiley, Special Assistant; Matt 
Eisenberg, Staff Assistant; Andrea Spring, Minority 
Professional Staff; Peter Spencer, Minority Professional Staff; 
Aaron Cutler, Minority Counsel; Amanda Mertens Campbell, 
Minority Counsel; and Garrett Golding, Minority Legislative 
Analyst.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good morning. Welcome to the Subcommittee on 
Energy and Environment and to this very important hearing.
    The Nation Academy of Engineering has called the North 
American electric grid the ``supreme engineering achievement of 
the 20th century.'' The grid is one of our greatest strengths, 
but, if not properly protected, it could become one of our 
greatest weaknesses.
    More than any other technology, the grid is the long pole 
in the tent of America's economy and national security. All of 
our Nation's critical systems--financial services, health care, 
telecommunications, transportation, water, defense, law 
enforcement, and so on--depend on the grid.
    Remarkably, 99 percent of the electric energy used to power 
our military facilities, including critical strategic command 
assets, come from the commercially operated grid. Our 
dependence on the grid will only deepen as we move toward 
greater reliance on automation and information technology.
    It has becoming increasingly clear in the last 2 years that 
the grid is vulnerable to cyber attacks and to other threats 
from terrorists, criminals, and hostile states. Over 2 years 
ago, the Department of Homeland Security revealed the so-called 
``Aurora vulnerability'' through which hackers could use 
communications networks to physically destroy electric 
generators, transformers, and other critical assets.
    We know that the cyber system controlling the grid and 
other critical infrastructure are continuously probed by 
outside parties. Just last week, the U.S.-China Commission 
reported on China's deep involvement in cyber espionage. In 
addition, new risks are coming to light, such as grid control 
systems vulnerability, to portable weapons that use high-
powered radio frequency, or microwaves to destroy electronic 
equipment. Some of these vulnerabilities could worsen if we 
don't implement smart grid technologies in a smart way.
    This past Thursday, I was joined by a number of other 
members of this subcommittee at a classified briefing on grid 
security. I assure you, the vulnerabilities of the grid are 
every bit as urgent as the weaknesses in transportation 
security that were so tragically revealed by the events of 
September 11th. A coordinated attack on the grid could 
literally shut down the U.S. economy, putting lives at risk and 
costing tens of billions of dollars. Moreover, unlike a storm 
knocking out power lines that can be replaced in a matter of 
days, an attack on the grid could result in damage requiring 
months or years to fix.
    There is broad agreement that to meet these challenges we 
need new Federal authorities and mandates. The status quo for 
Federal regulation in this area, which relies exclusively on 
industry development or consensus reliability standards through 
the North American Electric Reliability Corporation, is 
inadequate.
    That said, tough questions remain as to precisely what 
shape any new authorities and mandates should take. This 
morning we will consider two bills that address these issues: 
one sponsored by Mr. Barrow, which Chairman Waxman and I have 
cosponsored; and a second sponsored by Homeland Security 
Committee Chairman Bennie Thompson.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Markey. I commend Mr. Barrow and Chairman Thompson for 
their leadership on this critical issue.
    I think it is fair to say that the Barrow bill, of which I 
am a cosponsor, would establish the minimum new authority that 
all parties, including the utility industry and State 
regulators, agree is necessary. However, many parties argue 
persuasively that we must go further in order to adequately 
address the threats before us. I have kept an open mind on 
these issues, and I urge the other members of this subcommittee 
to do likewise.
    I am committed to working closely with Mr. Upton and Mr. 
Barton, along with Mr. Barrow and Chairman Waxman and all the 
other members of the committee, to move strong grid security 
legislation as soon as possible. This hearing represents an 
important first step in that direction.
    I thank the witnesses for joining us. I look forward to 
your testimony.
    And now I turn and recognize the ranking member of the 
committee, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. And I do want to 
thank you for holding this very important hearing. We 
appreciate our witnesses joining us this morning, as well.
    The House Homeland Security Committee has examined this 
issue, focusing on the vulnerability in electric generator 
control systems which could allow remote access, enabling a bad 
actor to remotely destroy a generator. We have also begun to 
look at these issues here, including classified hearings with 
the Department of Defense and Homeland Security, FERC, and 
others just last week.
    Today, we will seek additional answers, with a focus on the 
most productive way to ensure the security of our energy 
infrastructure. I know we can work together on bipartisan 
legislation to address this very, very serious issue.
    It is my hope that legislation to protect our critical 
infrastructure will also include Alaska, Hawaii, and our 
territories. Currently, NERC does not cover those areas, and 
our critical national security assets, particularly in Alaska 
and Hawaii, are too important to ignore.
    Domestic infrastructure should be protected for 
cybersecurity generally, in addition to physical and 
electromagnetic threats. Additionally, I don't think it is 
enough to just cover the bulk power system; we also must 
include the distribution system. It has become clear that the 
distribution system outages and vulnerabilities can lead to 
problems with the bulk power system, and critical defense 
facilities are connected at the distribution level.
    There is no question that this legislation should be 
comprehensive. We should seek to fill as many security gaps as 
possible. The threats that we face are too serious and abundant 
to only address a small portion of our vulnerability. The 
stakes could not be higher.
    And, as we know, security is not free. There will be a cost 
to protecting our critical energy and national defense 
infrastructure. Our legislation should provide a mechanism by 
which all generators, regardless of whether or not they are 
rate-regulated by a State PUC, are capable of covering the cost 
of investments that they are required to make in the name of 
protecting the national security of the U.S.
    The security of our Nation's energy infrastructure from 
attack is one of the most important issues that our committee 
will address. It is not an issue that we can take lightly or 
cover in just one hearing.
    Energy has certainly been one of the leading issues debated 
in Congress this year, rightfully so. Energy literally powers 
our economy. Even small price spikes and supply disruptions can 
wreak havoc on the economy. It is imperative that the security 
of our Nation's energy infrastructure gets the attention it 
deserves.
    I yield back.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Michigan, chairman 
emeritus of our committee, Mr. Dingell.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, thank you. I commend you for 
holding this hearing today. The reliability of this Nation's 
electricity grid in the face of its vulnerabilities to 
cybersecurity attacks is a matter of the utmost interest and 
concern.
    Mr. Chairman, I would note that the White House has 
indicated that there will be a significant effort on the part 
of the administration to address the renewal of the grid. 
Therefore, this hearing comes at a very important time because, 
in addition to addressing the questions of efficiency of the 
grid, we can also see to it that questions relative to the 
safety and security of the grid are also addressed.
    If there were a successful remote cyber attack on a plant's 
utility control systems, we could face something more serious 
than a brief brownout or blackout. The Idaho National 
Laboratory has shown how a hacker can remotely turn a large 
generator into a smoldering scrap pile in just a few moments. 
Known as the ``Aurora vulnerability,'' this type of attack 
could destroy generating equipment and impair the generation 
and delivery of electricity across the entire area of North 
America for weeks or months, its consequences cascading on 
consumers, on our economy, on our health care system, and on 
our national defense assets, amongst other things.
    These concerns are not just theoretical. It has been 
reported that China, Russia, and other nations have conducted 
cyber probes of the U.S. grid systems. Moreover, cyber attacks 
have actually been conducted against critical infrastructure in 
other countries.
    In response to the Department of Homeland Security's 
worrying about Aurora vulnerability, the North American 
Electric Reliability Corporation, NERC, issued an advisory in 
June 2007 which outlined immediate and longer-term mitigation 
measures for utilities. An FERC audit of 30 utilities found 
that, 2 years later, progress had been made but that very 
significant issues still remain.
    As the Electricity Reliability Organization designated 
under Section 215 of the Energy Policy Act of 2005, NERC has 
developed reliability standards for critical infrastructure 
protection. However, there are significant gaps, given the 
nature of a national security threat. We need to extend Federal 
authority to take emergency actions as necessary to protect the 
grid. I look forward to building a bipartisan consensus on 
legislation which will ensure that the Federal Government has 
all the necessary powers to intervene when there are 
emergencies that threaten the Nation's electricity supply.
    I also welcome our panel of witnesses. It is my hope that 
they can inform us on whether emergency power should extend 
beyond the bulk power system to utility systems in Alaska, 
Hawaii, Guam, and in other American possessions or areas.
    These powers should also be able to reach critical 
distribution systems in places like the District of Columbia or 
New York City. We want to be sure that the legislation 
addresses threats to the electrical system and that the Federal 
Government is not improperly hobbled by legal and 
jurisdictional boundaries in the case of emergencies.
    Thank you, Mr. Chairman.
    Mr. Markey. Great. The gentleman's time has expired.
    The Chair recognizes the gentleman from Illinois, Mr. 
Shimkus.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman.
    I, too, concur that this is a very important meeting, and I 
appreciate you all coming to help us sort through this.
    You know, I had recently retired, about a year ago, from 
the Army Reserves. I served 3 years actively in West Germany. 
And, throughout my years here, I have always followed up on 
comments about the electromagnetic pulse concern, whether from 
natural occurrences or ships or a nuclear burst.
    And we have always talked about smart metering is like the 
Holy Grail of energy efficiency. I think some people would 
argue that we set ourselves more at risk on some of this if it 
is an intentional electromagnetic burst in the atmosphere 
because of the ability to fry out this smart metering in all 
these solid-state applications, and the recovery time would be 
much greater than if we kept it simple.
    So that will be my focus to debate, to hear, to try to 
figure out what is good and how far should we go, but, again, 
being careful that we don't try to automate so much that we 
actually decrease our ability to have a quick recovery, whether 
there be an intentional electromagnetic pulse burst or 
something that will naturally occur that will cause us great 
harm.
    It was interesting, I heard a story out of St. Louis. I 
live close to St. Louis, Missouri. The nuclear power plant in 
Missouri is still on dial-up for its communications, just dial-
up communications. And one of the things that they mentioned 
was, well, they don't really want to be on broadband because 
they don't want cybersecurity issues, they don't want some 
other types of concerns.
    So it will be interesting to follow--again, this is all 
just basically over-the-radio broadcast news, so I look forward 
to following that up.
    Thank you, Mr. Chairman. I yield back.
    Mr. Markey. Great. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California, Ms. 
Matsui.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman, and thank you for 
calling this hearing. I am very pleased to be here today and 
would just take a couple minutes so we can continue on to the 
distinguished witnesses.
    I would like to thank today's panelists for joining us to 
discuss the security of our electric grid, with regard to the 
two pending pieces of legislation. In particular, I would like 
to welcome my friend and constituent, John DiStasio, general 
manager and CEO of Sacramento Municipal Utility District, 
otherwise known as SMUD, to today's hearing.
    John has served SMUD most admirably for nearly 30 years. He 
originally joined the utility as a buyer for the district's 
purchasing department. He was promoted to the utility's top 
post last year, after serving as the assistant general manager 
since 2000 and being awarded a number of customer service 
honors.
    I look forward to hearing his views on ways in which we can 
legislatively address cybersecurity issues in relation to 
protecting our electric infrastructure.
    Additionally, I look forward to hearing all of your expert 
opinions. The expertise you share here will be useful 
throughout the committee process and in considering these 
measures.
    As we are aware, the world has become critically reliant on 
digital communications, making military targets, civilian 
infrastructure, particularly our electric grid, vulnerable to 
cyber attack. The electric grid is a significant part of our 
country's infrastructure. Failure to take preventative steps to 
ensure its protection significantly endangers our economy.
    It is critical that we examine the existing regulatory 
authorities that respond to threats aimed at our power system. 
And we need to continually examine the expanding risk of cyber 
attacks and the implications for traditional methods of 
deterrence. This committee is well-positioned to examine this 
issue and has already suggested one manner in which to address 
it. Together, we can ensure that we have the tools and 
resources necessary to effectively defend our electric 
infrastructure.
    I look forward to hearing from the panelists on the bills 
before us today and working with the committee and stakeholders 
on these important matters. Once again, I thank you, Mr. 
Chairman, for highlighting this important topic. And I yield 
back the balance of my time.
    Mr. Markey. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Florida, Mr. 
Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning. And thank you, Mr. Chairman, and 
thank the ranking member, Mr. Upton, for calling this really 
important hearing, which basically is addressing the 
vulnerability of the Nation's electrical grid to cyber attacks 
and the steps that are needed to be taken to protect this 
critical infrastructure.
    It has become apparent, I think, to all that our electric 
grid is vulnerable to cyber attacks by terrorists and by other 
nations. Our Nation's infrastructure systems are heavily, 
obviously, reliant on computer-based systems that are used to 
monitor and control sensitive processes and physical functions. 
These systems were once mostly closed proprietary operations 
but are increasingly connecting to open networks, like 
corporate intranets and the Internet.
    The transition towards widely used technologies and open 
connectivity exposes the control system to the ever-present 
cyber risks that exist in the information technology world in 
addition to control-system-specific tasks.
    Driving such concerns are reports that malicious attacks 
are rising on specialized computer control systems that open 
and shut valves on natural gas pipelines, throw circuit 
breakers on power lines, and make telecommunications and 
defense networks, nuclear power plants, and hydro dams do their 
jobs.
    To address these vulnerabilities, the Institute for Human 
and Machine Cognition, which is part of the Florida Institute 
of Technology and partnership thereof--Mr. Chairman, it is 
located in my hometown of Ocala, Florida--is creating new 
processes for better defending supervisory control and data 
acquisition systems, SCADA, from attack. Such systems, known as 
SCADA, monitor and report on the functions of closed 
computerized networks that provide real-time data in the 
operation of these central facilities.
    For example, SCADA networks could track something as simple 
as a climate control system in an office building or monitor 
the key workings of something as complex and expansive as a 
nuclear power plant. SCADA networks are also widely used to 
control the flow of oil and natural gas through pipelines, 
dams, and many non-energy-related processes such as water and 
sewer lines, telecommunication systems, and mass transit 
systems.
    So, Mr. Chairman, I think this is a very good hearing, and 
I look forward to our witnesses.
    Mr. Markey. Great. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
McNerney.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Well, I want to thank you, Mr. Chairman, for 
calling this meeting on the critical issue that is in front of 
us and also a very fascinating issue.
    I want to thank the witnesses. I have looked at your 
resumes, and I am very pleased with the caliber of information 
you are going to bring in front of us.
    Mr. DiStasio, from my area in California, I appreciate your 
coming out here today.
    It amazes me that we have a network, a physical network, of 
electrical system that serves our country that is vulnerable to 
cyber attack that can bring down large portions of our country. 
So the question is, what do we do about it? And we need to 
worry both about how to prevent attacks, how to make ourselves 
less vulnerable, and also how to plan for contingencies if 
attacks are successfully carried out, both cyber and physical 
attacks.
    So these are big issues. The issue is complicated, but we 
look forward to getting some concrete ideas from you.
    I want to thank Mr. Barrow for your leadership on this; 
Bennie Thompson, who is not here, for his leadership. This is 
what we need, this kind of forward-looking leadership.
    So thank you all for coming, and I look forward to your 
testimony.
    Mr. Markey. The gentleman's time has expired.
    The gentlelady from Wisconsin, Ms. Baldwin, is recognized.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman, for holding this 
important hearing on protecting the Nation's electric grid from 
cyber attacks and other threats.
    The threat of someone with ill intent attacking and 
accessing the control systems of electric generators or other 
equipment presents a substantial concern that must be 
addressed. These cyber or other forms of attacks, perpetrated 
with the intent to disrupt services in the short term or wreak 
long-term havoc by damaging equipment, could have a significant 
impact not only on our national security but also our economic 
security. In fact, according to one estimate, if a third of the 
country lost power for 3 months, the economic price tag would 
be $700 billion.
    The Idaho National Laboratory test, known as Aurora, which 
has been cited a couple of times already, demonstrated how an 
attacker could break into a control system and disrupt the 
grid. This test highlighted the seriousness of a potential 
threat to our infrastructure and the urgency with which 
Congress and our Nation's agencies must act to mitigate any 
consequences.
    As we consider the two bills before us, we must remember 
that we have a responsibility to remain vigilant, to make sure 
that our agencies have the proper tools to protect against 
cyber attacks, and to ensure that industry is fully prepared to 
work in concert with government to prevent any disruptions.
    I look forward to hearing from our witnesses today about 
how we can best address these reliability and security issues.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Markey. The gentlelady's time has expired.
    The gentleman from Georgia, the sponsor of this 
legislation, who I would like to congratulate for his excellent 
efforts in this area, is recognized for 2 minutes.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Barrow. Well, thank you, Mr. Chairman. And thank you 
for moving this legislation forward and for the opportunity to 
work together on this issue of critical importance to our 
homeland security.
    I am a sponsor of H.R. 2165, the ``Bulk Power System 
Protection Act of 2009,'' one of the subjects of today's 
hearing, because I am convinced that the threats to our 
critical energy infrastructure are every bit as real and every 
bit as dangerous as any threat we can imagine. I am pleased 
that this Congress and this committee have given this a high 
priority and will push forward to pass meaningful legislation.
    I obviously think that my bill is on the right track, but I 
am open to new angles, incorporating new ideas into the mix. I 
encourage my colleagues to cosponsor H.R. 2165, and let's use 
it as a foundation for working together on these solutions.
    The key to sustainable security is that government and 
industry identify and address evolving threats against our 
country together. As our society becomes more and more reliant 
on technological advances, we actually become more and more 
vulnerable to debilitating attacks. This hearing is an 
important first step toward closing security gaps which 
threaten us. The time to act is now; the American people expect 
it, and our national security demands it.
    I thank the witnesses for being here today, and I thank the 
chairman for the time. And I yield back the balance of my time.
    Mr. Markey. I thank the gentleman for his work.
    All time for opening statements has been completed.
    Chairman Bennie Thompson, chairman of the Homeland Security 
Committee and lead sponsor of H.R. 2195, one of the bills that 
we are considering today, has submitted a written statement for 
the record. I would like unanimous consent that that statement 
be entered into the record.
    Without objection, so ordered.
    [The prepared statement of Mr. Thompson follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Markey. And all members can introduce their statements 
for that purpose.
    [The prepared statements of Messrs. Green and Burgess 
follow:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Markey. I would also like to add that Chairwoman Yvette 
Clarke of the relevant committee on the Homeland Security 
Committee and Jim Langevin, who was the Chair last year, would 
also like to have permission to have space reserved in the 
record for their statements, as well. And I want to 
congratulate them on their excellent work on this issue.
    [The prepared statement of Mr. Langevin follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Markey. I note that the gentleman from Pennsylvania, 
Mr. Pitts, has arrived; Mr. Scalise has arrived.
    Would you like to be recognized, Mr. Scalise?
    Mr. Scalise. No, thank you.
    Mr. Markey. Then we will turn----
    Mr. Pitts. I will submit it for the record, Mr. Chairman.
    Mr. Markey. Then the gentleman from Pennsylvania's 
statement will be included in the record at the appropriate 
point.
    [The prepared statement of Mr. Pitts was unavailable at the 
time of printing.]
    Mr. Markey. So we will turn to our first witness, Mr. 
Joseph McClelland, director of the Office of Electric 
Reliability at the Federal Energy Regulatory Commission. Mr. 
McClelland has led FERC's efforts to approve and enforce 
mandatory reliability standards for the electric grid.
    We thank you for joining us today. Please begin.

 STATEMENTS OF JOSEPH MCCLELLAND, DIRECTOR, OFFICE OF ELECTRIC 
  RELIABILITY, FEDERAL ENERGY REGULATORY COMMISSION; THE HON. 
PATRICIA HOFFMAN, PRINCIPAL DEPUTY ASSISTANT SECRETARY, OFFICE 
 OF ELECTRICITY, U.S. DEPARTMENT OF ENERGY; THE HON. GARRY A. 
 BROWN, CHAIRMAN, NEW YORK PUBLIC SERVICE COMMISSION; DAVID N. 
   COOK, VICE PRESIDENT AND GENERAL COUNSEL, NORTH AMERICAN 
   ELECTRIC RELIABILITY CORPORATION; JOHN DISTASIO, GENERAL 
     MANAGER AND CEO, SACRAMENTO MUNICIPAL UTILITY DISTRICT

                 STATEMENT OF JOSEPH MCCLELLAND

    Mr. McClelland. Mr. Chairman and members of the 
subcommittee, thank you for the privilege to appear before you 
today to discuss the security of the power grid.
    My name is Joe McClelland, and I am the director of Office 
of Reliability for the Federal Energy Regulatory Commission. I 
am here today as a commission staff witness, and my remarks do 
not necessarily represent the views of the Commission or any 
individual commissioner.
    In the ``Energy Policy Act of 2005,'' or EPACT of 2005, 
Congress entrusted the Commission with a major new 
responsibility: to oversee mandatory, enforceable reliability 
and cybersecurity standards for the Nation's bulk power system. 
This authority is new Section 215 of the ``Federal Power Act.''
    Under the new authority, FERC cannot author or modify 
cybersecurity standards but must select an industry self-
regulatory organization, termed the Electric Reliability 
Organization, or ERO, to perform this task. The ERO develops 
and proposes cybersecurity standards or modifications for the 
Commission's review, which it can then either approve or 
remand. If the Commission approves a proposed cybersecurity 
standard, it applies to the users, owners, and operators of the 
bulk power system and becomes mandatory in the United States. 
If the Commission remands a proposed standard, it is sent back 
to the ERO for further consideration and work.
    The Commission selected the North American Electric 
Reliability Corporation, or NERC, as the ERO. It is important 
to note that FERC's jurisdiction and reliability authority is 
limited to the, quote, ``bulk power system,'' end quote, as 
defined in the ``Federal Power Act,'' which excludes Alaska and 
Hawaii, transmission facilities, and certain large cities such 
as New York City, and distribution systems.
    Pursuant to this duty, in January of 2008 FERC approved 
eight cybersecurity standards, known as the ``Critical 
Infrastructure Protection Standards,'' or CIP standards, 
proposed by NERC while concurrently directing modifications to 
all of them. Although the existing CIP standards are approved, 
full implementation of these standards by all entities will not 
be mandatory until 2010.
    The first of several batches of modifications responding to 
the Commission's directives was approved in September of 2009, 
although the Commission directed further modifications to the 
revised standards. It is not yet clear how long it will take 
for the CIP standards to be modified to eliminate some of the 
significant gaps in protection within them.
    On a related note, as smart grid technology is added to the 
bulk power system, greater cybersecurity protections will be 
required, given that this technology provides more access 
points to attackers and can increase the grid's cyber 
vulnerabilities. The CIP standards will apply to some but not 
all smart grid applications.
    Physical attacks against the power grid can cause equal or 
greater destruction than cyber attacks. One example of a 
physical threat is an electromagnetic pulse, or EMP, event. In 
2001, Congress established a commission to assess the threat 
from EMP. And, in 2004 and again in 2008, the EMP Commission 
issued its reports.
    Among the findings of the reports were that a single EMP 
attack could seriously degrade or shut down a large part of the 
electric power grid. Depending upon the attacks, significant 
parts of the electric infrastructure could be, quote, ``out of 
service for periods measured in months to a year or more,'' end 
quote.
    In addition to man-made attacks, EMP events are also 
naturally generated, caused by solar flares and storms 
disrupting the Earth's magnetic field. Such events can be 
powerful and can also cause significant and prolonged 
disruptions to the power grid.
    Regardless of whether an EMP event is manmade or occurs 
naturally, it can cause equal or even greater destruction than 
a cyber attack, and the Federal Government should have no less 
ability to protect against it.
    In September of this year, FERC initiated a research 
project with the Oak Ridge National Laboratory to study the 
events of an EMP event on the United States and to identify 
mitigation measures to protect against it. DOE and DHS have 
joined in this study, and we expect to complete it within 6 
months.
    The standards development system utilized under the 
``Federal Power Act'' develops mandatory reliability standards 
using an open and inclusive process based on consensus. 
Although it can be an effective mechanism with dealing with the 
routine requirements of the power grid, it is too slow, too 
independent, and too open to address threats to the power grid 
that endanger national security. FERC's current legal authority 
is insufficient to assure direct, timely, and mandatory action 
to protect the grid, particularly where certain information 
should not be publicly disclosed.
    Any new legislation should address several key concerns. 
First, FERC should be permitted to take direct action before a 
cyber or physical national security incident has occurred. 
Second, FERC should be allowed to maintain the appropriate 
confidentiality of security-sensitive information. Third, the 
limitations on the term, quote, ``bulk power system,'' end 
quote, should be considered, as FERC cannot act to protect 
attacks involving Alaska and Hawaii, as well as some 
transmission and all local distribution facilities in large-
population areas. Finally, if Congress finds it appropriate, 
Congress should provide a mechanism allowing entities to 
recover costs that the utilities incur to mitigate 
vulnerabilities and threats.
    Thank you for attention today, and I look forward to any 
questions that you may have.
    [The prepared statement of Mr. McClelland follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Markey. Great. Thank you, Mr. McClelland, very much.
    And I will say to each one of you that you only have 5 
minutes for your opening statement. And after I introduce you, 
you don't have to read that part of your statement again. You 
can get right to the meat of it, oK, because I will have done 
it.
    Our next witness is Ms. Patricia Hoffman, principal deputy 
assistant secretary of the Office of Electricity at the U.S. 
Department of Energy. In this capacity, Ms. Hoffman provides 
leadership on a national level to modernize the electric grid 
and enhance the security and reliability of the energy 
infrastructure.
    Thank you for joining us today. Whenever you are ready, 
please begin.

             STATEMENT OF THE HON. PATRICIA HOFFMAN

    Ms. Hoffman. Thank you, Chairman Markey and members of the 
subcommittee, for this opportunity to testify before you today 
on H.R. 2195 and 2165.
    The energy sector's threat analysis encompasses natural 
events, criminal acts, and insider threats, as well as foreign 
and domestic terrorism. Because of the diversity of assets in 
the systems in the energy sector, a multitude of methodologies 
have been used to assess risks, vulnerabilities, and 
consequences.
    Also, improving the resiliency of the Nation's electric 
power grid for the purpose of national security will come at a 
cost. As Congress considers legislation, we recognize there are 
limited resources. Therefore, we must prioritize our 
activities, continually assessing risk, the impact to the 
electric sector, and financial impacts.
    Incident response and information sharing still remain 
foremost our concern. While the United States has had a good 
deal of experience with physical disruptions to the grid, such 
as the 2003 Northeast blackout and the hurricanes of 2005 and 
2008, it does not have experience-based lessons learned from a 
cyber incident. While coordination and communication has 
improved between public and private organizations over the past 
several years, much more is needed to prevent and respond to an 
attack that could hamper the U.S. electric power grid.
    The 2010 Energy and Water Appropriations Conference Report 
directs the Department of Energy to develop an independent 
national energy-sector cybersecurity organization to institute 
research; development and deployment priorities, including 
policies and protocols to ensure the effective deployment of 
tested and validated technology and software controls to 
protect the bulk power system; and the integration of smart 
technologies to enhance the security of the electric grid.
    Congress assigned the National Institute of Standards and 
Technology, NIST, with the responsibility to coordinate the 
development of a framework and a roadmap for interoperability 
standards, including cybersecurity. The Department has been 
working closely with NIST and other agencies through this Smart 
Grid Task Force and the private sector. I am pleased to say 
significant progress has been made. NIST issued Release 1.0 of 
the ``NIST Framework and Roadmap for Smart Grid 
Interoperability Standards,'' as well as Draft NIST Interagency 
Report 7628, ``Smart Grid Cybersecurity Strategy and 
Requirements.''
    The Department recognizes the inherent weaknesses 
associated with driving system effectiveness and risk from a 
single worst-case scenario. A single worst-case scenario is 
possible but rarely exists and often exceeds the known and 
projected adversary capabilities. At the same time, focusing on 
the worst-case scenario may result in overlooking protection 
system elements needed to counter more probable, significant, 
and credible threats. Consequently, the Department is looking 
at a more balanced methodology to effectively detect and deter 
threats.
    The Department reviewed the various bills and conducted 
analysis to evaluate the effectiveness. We also have reviewed 
the existing cybersecurity standards and the relative 
effectiveness in addressing high-consequence risks in a rapidly 
changing threat environment.
    The Department provides the committee the following 
technical comments.
    The Federal Energy Regulatory Commission could be 
authorized to issue an emergency security directive to owners 
and operators of the bulk power system covering a specific 
period of time if the Secretary of Energy has determined that a 
power grid emergency exists.
    A power grid emergency could be defined as a situation that 
poses a high risk to the bulk power system that must be 
addressed within 60 days without public disclosure. 
Determination of a power grid emergency in general would 
require the expertise of the Secretary of Energy, in 
consultation with the Secretary of Homeland Security, the 
Office of Attorney General, and the Director of National 
Intelligence.
    In making a determination, the Secretary could consider: a 
known cyber vulnerability exists that may affect the bulk power 
system; a threat actor is determined to have known or suspected 
intent, requisite resources, and capabilities to carry out the 
threat with a high likelihood; if exploited, the vulnerability 
would result in significant consequences, including damage to 
assets, infrastructure, loss of life, and psychological damage; 
the situation presents an imminent risk to the bulk power 
system.
    Any directive should have performance objectives and 
metrics for mitigating the identified threat vulnerability and/
or potential consequence. The directive may alternately be in 
the form of an alert that notify owners or operators of a 
potentially serious cyber situation. Specific methods for 
compliance could be left to the discretion of the provider of 
the bulk electric power, provided the security performance 
objectives are met.
    Any directives should notify private-sector operators of 
the bulk power system of the nature of the risk, consistent 
with the proper handling of classified and restricted 
information, and direct operators to investigate, take 
appropriate and corrective action, and file report findings 
back to FERC within a specified time period; and, if required, 
direct owners and operators of the bulk power system through 
NERC to develop mitigations to test and validate such 
mitigations. The Department of Energy could provide technical 
support.
    With this, I will conclude my testimony. I thank you for 
the opportunity for being here, and I look forward to any 
questions you have.
    [The prepared statement of Ms. Hoffman follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Markey. Thank you, Ms. Hoffman, very much.
    Our next witness is Mr. Garry Brown. He is the chairman of 
the New York State Public Service Commission. Mr. Brown is 
testifying on behalf of the National Association of Regulatory 
Utility Commissioners that will henceforth in this committee be 
referred to as NARUC, which will completely confuse anyone 
watching on C-SPAN.
    So this is your last notice, viewers. It is the National 
Association of Regulatory Utility Commissioners. So, all 50 
States have them. They each decide, kind of, what the 
electricity and telephone rates are in your State.
    Mr. Brown is going to speak for all of them in America. He 
has 30 years of experience in mastering the arcane language of 
regulatory law.
    And you have 5 minutes, Mr. Brown.

                  STATEMENT OF GARRY A. BROWN

    Mr. Brown. Good morning, Chairman Markey.
    As you said, I am the Chair of Electricity Committee at 
NARUC.
    State regulators take the reliability and security of the 
bulk power system very seriously. However, as technology 
changed, new risks and vulnerabilities have emerged. The 
transition to a smarter, digital, more efficient grid carries 
with it potential concerns.
    Do you want me to talk through it?
    Mr. Markey. You can continue through.
    Mr. Brown. Thank you.
    As Congress considers legislation in this area, it should 
seek to build on existing----
    Mr. Markey. When the bells ring, it tells us with two bells 
that there is a roll call--this won't come off of your time--
three bells, that we have a quorum.
    When it goes out to six bells and then it goes six bells 
and then six bells and six bells, you should start running very 
fast. But that hasn't occurred in my 33 years here. But I just 
want to notify you that, if it just keeps going through and 
ringing, that that is not a good thing. But, so far, our 
reliability counsel up here----
    Mr. Shimkus. Mr. Chairman, it is worse when there is no 
power, so you hear no bells.
    Mr. Markey. So this is maybe the key hearing. Otherwise, we 
will be reliant upon the same system that my district relied 
upon in 1775, with Paul Revere riding through and knocking on 
people's doors and saying, ``Get out your gun.''
    So, anyway, you have 4 minutes and 29 seconds to go, Mr. 
Brown.
    Mr. Brown. Thank you.
    As Congress considers legislation in this area, it should 
seek to build on existing Federal-State coordination that 
results in a framework where vulnerabilities to the system are 
identified, prioritized, and resolved in a timely fashion. 
Congress needs to distinguish between imminent threats, which 
require immediate action, and vulnerabilities, which can be 
resolved more deliberately.
    Our first vulnerability focuses on business process 
systems--e-mail, office equipment, databases, et cetera--that 
are not unique to utilities but take on special significance 
given the utilities' economic importance.
    A second vulnerability is more specific to utilities, and 
that is utility control systems. Supervisory control and data 
acquisition, or SCADA, systems are already inextricably part of 
our utility operations and have served to improve the 
efficiency and reliability of our system operations in every 
system throughout the country.
    Regulatory commissions have begun to probe the cyber-
preparedness of utility companies in the realm of smart grid. 
In concept, the smart grid has the potential to provide 
improvements in situational awareness, prevention, management, 
and restoration. In spite of introducing new vulnerabilities, 
smart grid fundamentally makes the electric system more secure. 
Still, this technology brings with it new vulnerabilities and 
new points of access to create intentional disruption, which 
should be taken extremely seriously.
    In each of these areas, steps are being taken to manage 
risk. The regulated companies we oversee have, through the 
North American Electric Reliability Corporation, developed good 
cybersecurity standards. The question of how far that standard 
extends is not yet clear. NERC's cybersecurity standards are 
extensive and thorough. Over the past 2 years, electric 
utilities across the country have requested significant 
additional staffing and significant additional dollars for 
NERC's standard compliance activities in their transmission 
rate case filings at FERC.
    The standards already in place are adequate for both 
physical and cybersecurity. Overextending the applicability of 
those standards to lower-voltage facilities raises the question 
how much more we are willing to pay for what may be a marginal 
increase in cybersecurity.
    I would like to share three examples of commissions engaged 
to ensure companies are meeting their responsibilities.
    Since 2005, the Pennsylvania Public Utility Commission has 
required all jurisdictional utilities to have a written 
cybersecurity plan to complement their emergency response, each 
of which are tested on an ongoing basis.
    Another State taking action is Missouri. The commission 
requires all of its utilities to have in place reliability 
plans and, in May 2009, queried its utilities about steps taken 
or planned regarding cybersecurity as it relates to company 
operations. The contacts made highlighted NERC order number 
706, which mandates that electric companies adhere to eight 
standards relative to cybersecurity.
    Since 2003, the New York Commission's Office of Utility 
Security has carried out a regular program of oversight of both 
physical and cybersecurity practices and procedures of the 
regulated utility companies in the energy telecommunications 
and water sectors. Staff of this office is devoted full-time to 
security audit responsibilities.
    Generally, we utilize the existing NERC CIP standards as 
benchmarks to form our own judgments about the quality of 
cybersecurity measures in place at the regulated utilities. 
Staff is adhering to a schedule that calls for visiting each 
regulated utility company four times a year to audit compliance 
with some portion of CIP standards, with the goal of measuring 
compliance with all of the standards at each of the companies 
over the course of the year.
    We have the benefit in New York of a close and effective 
partnership with our State cybersecurity office. The New York 
Office of Cybersecurity and Critical Infrastructure 
Coordination directs efforts to maintain cybersecurity 
practices within State government agencies. We have established 
an excellent record for being a prompt and reliable source of 
information. I have personally been in consultation with CCIC 
and NERC to consider cyber threats and risks to the smart grid.
    I want to get to Federal legislation quickly. NARUC 
believes Congress should build upon existing Federal-State 
coordination and result in an environment where vulnerabilities 
are identified, prioritized, and resolved in a timely fashion. 
Congress needs to distinguish between imminent threats, which 
require immediate action, and vulnerabilities, which can be 
resolved more deliberately.
    First, a component of any legislation should be the ability 
for Federal departments and agencies to have information 
identifying priority vulnerabilities and imminent threats and 
how this information is communicated to the various electricity 
providers, State and Federal law enforcement, and State 
regulatory authorities.
    In normal situations, the electric power industry can 
protect the reliability and security of the bulk power system 
without governmental intelligence information. However, in the 
limited circumstances----
    Mr. Markey. If you can summarize, Mr. Brown, please.
    Mr. Brown. Yes, I can.
    In the limited circumstances when the industry does not 
need governmental intelligence information on a particular 
threat or vulnerability, it is critical that such information 
be timely.
    NARUC believes H.R. 2165 takes the best approach to the 
issues that confront cybersecurity in our Nation's electric 
system. And we thank Representative Barrow, Chairman Waxman, 
and Chairman Markey for introducing this legislation. There is 
a need for Federal leadership on these complex cybersecurity 
issues.
    This concludes my remarks, Mr. Chairman.
    [The prepared statement of Mr. Brown follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Markey. Thank you, Mr. Brown, very much.
    Our next witness is Mr. David Cook. He is the vice 
president and general counsel of the North American Electric 
Reliability Council, or NERC. In this role, Mr. Cook helps to 
lead the development of mandatory and enforceable reliability 
standards for the electric grid.
    Prior to joining NERC in 1999, Mr. Cook worked for 10 years 
as deputy general counsel of the Federal Energy Regulatory 
Commission.
    So, again, just for our audience, Mr. Cook is speaking for 
NERC, which is the private sector. Mr. Brown is speaking for 
NARUC, which are the State regulators. And the first two 
witnesses speak for the Federal Government, and that would be 
the Department of Energy, which I think everyone knows, and the 
FERC, Federal Energy Regulatory Commission.
    We have FERC and NERC, and it does get confusing to people, 
oK, but it is Federal Government, State government, and now the 
private sector.
    Mr. Cook, whenever you are ready, please begin.

                   STATEMENT OF DAVID N. COOK

    Mr. Cook. Thank you, Mr. Chairman and members of the 
subcommittee.
    NERC's overall mission is to ensure the reliability of the 
bulk power system in North America. Cybersecurity is an 
important component of that mission. The challenges the grid 
faces from cybersecurity threats, however, are different from 
other reliability concerns.
    Digital technology changes frequently, and novel potential 
threats can arise very quickly, requiring rapid and often 
confidential responses. Threats can arise virtually any time 
and anywhere across the vast array of communicating devices on 
the grid. Moreover, cybersecurity threats are more likely to be 
driven by intentional manipulation of devices rather than 
weather-related or operational events that regularly occur on 
the system.
    All of these characteristics set cybersecurity apart from 
other reliability concerns. For these reasons, NERC believes 
that the U.S. Government needs additional emergency authority 
to address specific imminent cybersecurity threats.
    As the international regulatory authority for the 
reliability of the bulk power system, NERC is responsible for 
developing reliability standards applicable to all users, 
owners, and operators of the system. The standard-setting 
process brings together NERC and industry and security experts 
from the United States and Canada to develop standards that 
must apply to the international grid.
    Developing long-term standards that apply to more than 
1,800 diverse entities that own and operate the bulk power 
system is a complex undertaking. Standards must apply equally 
to companies with thousands of employees and those with only 
20. Additionally, the standards must do no harm.
    NERC recognizes that, while the standards in place today 
provide a sound starting point, they should be and are being 
improved. NERC is also working in a number of areas to make 
available the kinds of information that will help the industry 
better secure critical assets from advanced well-resourced 
threats and other known cybersecurity activity on an ongoing 
basis.
    In its role as the electricity-sector information sharing 
and analysis center, NERC analyzes and disseminates threat 
information and warnings to the electricity industry in the 
form of voluntary advisories, recommendations to industry, and 
essential action notifications.
    NERC's preparedness and awareness efforts are necessary but 
not sufficient to protect the system against imminent specific 
cybersecurity threats. The principal gap that NERC sees in the 
current law is that the Federal Government lacks sufficient 
authority to address an imminent and specific cybersecurity 
threat. Both H.R. 2165 and H.R. 2195 address that gap.
    NERC believes the authority to act in such emergencies 
should be assigned to a single Federal agency. The legislation 
should also assure coordination between the Federal agency with 
that authority and appropriate officials in Canada and Mexico. 
H.R. 2165 contains important provisions that require such 
consultation, while H.R. 2195 contains no specific provisions 
in this area.
    The jurisdiction provided by H.R. 2195 would go beyond the 
scope of existing Section 215 to cover distribution system 
assets. 2165 would limit its scope to the existing Section 215.
    While physical threats are also a concern, NERC believes 
addressing the present gap and authority to address specific 
imminent cybersecurity threats is the highest legislative 
priority at this time.
    One of the greatest challenges the industry faces in 
dealing effectively with the threats we have been discussing is 
the limited amount of concrete technical information coming 
from government agencies. Much of the information about threats 
is classified or otherwise subject to restrictions on 
disclosure.
    Without more specific information being appropriately made 
available to asset owners, they are unable to determine whether 
particular cybersecurity concerns exist on their systems or 
develop appropriate mitigation strategies. A mechanism, 
therefore, is needed to validate the existence of such threats 
and ensure information is appropriately conveyed.
    Over the past year, NERC has worked to facilitate this 
information sharing and stands ready to support further efforts 
in this area. Both H.R. 2165 and H.R. 2195 contain provisions 
to address this problem.
    To conclude, NERC, the electric industry, and the 
governments of North America share a mutual goal of ensuring 
that threats to the reliability of the bulk power system, 
especially cybersecurity threats, are clearly understood and 
effectively mitigated. NERC fully supports legislative efforts 
to provide the Federal Government with emergency authority to 
address imminent cybersecurity threats as quickly as possible.
    Moving forward, NERC is committed to complementing Federal 
authority to address cybersecurity challenges, regardless of 
the form that legislation may take.
    Thank you.
    [The prepared statement of Mr. Cook follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Markey. Thank you, Mr. Cook, very much.
    And our final witness is Mr. John DiStasio. He is general 
manager and CEO of the Sacramento Municipal Utility District, 
or SMUD; henceforth called ``SMUD'' for our hearing purposes.
    So we will have SMUD, NERC, NARUC, DOE, and FERC. Good 
luck, C-SPAN viewers, in this hearing.
    He will be discussing bulk power as it is differentiated 
from a distribution system and how we can coordinate.
    So welcome, Mr. DiStasio. Whenever you are ready, please 
begin.
    Mr. Markey. And you can see why we should legislate in this 
area. You can see how it could escape a lot of attention from 
Congress, in terms of the security of the system.
    Welcome, Mr. DiStasio. Whenever you are ready, please 
begin.

                   STATEMENT OF JOHN DISTASIO

    Mr. DiStasio. Thank you, Chairman Markey, members of the 
subcommittee. I appreciate the opportunity to explain how the 
electric industry is addressing cybersecurity challenges and to 
support narrowly targeted legislation to enhance those efforts.
    SMUD supplies electricity to California's capital region. 
We serve a population of 1.4 million people. We operate 473 
miles of transmission lines but nearly 10,000 miles of 
distribution lines. Our customers include the State of 
California, the county of Sacramento, companies such as Intel, 
and other customers critical to public welfare and our local 
economy.
    SMUD is a member of the American Public Power Association, 
APPA, and the Large Public Power Council, LPPC. They are part 
of a larger coalition of electricity stakeholders that have 
been working together on cybersecurity issues for the last 2 
years.
    The industry coalition includes investors, cooperatively 
and publicly owned utilities, utility generators, independent 
generators, Canadian utilities, large industrial consumers, and 
State PUCs. We often have very different views on policy issues 
facing our industry, but on the issue of cybersecurity we have 
been working together to help develop NERC's reliability 
standards for critical infrastructure protection and, more 
recently, to identify areas where additional legislation may be 
needed.
    APPA, LPPC, NARUC, the Canadian Electric Association, the 
Edison Electric Institute, the Electricity Consumers Resource 
Council, the Electric Power Supply Association, the National 
Rural Electric Cooperative Association, and the Transmission 
Access Policy Study Group all support carefully crafted 
specific legislation to deal with the discrete issue of 
cybersecurity.
    We understand the seriousness of this issue, and we know we 
need to deal with it. It is in the industry's best interest to 
protect against cyber attacks. When the lights go out for 
whatever reasons, we are the ones held responsible. If they do 
go out, we want to bring them back on as quickly as possible 
and to minimize potential risk to health, safety, and property 
and to minimize any adverse impacts to the public.
    At the same time, our industry is facing additional 
regulatory requirements in a number of areas, which all 
translate to increased costs for our consumers. Therefore, we 
must use our dollars and workforce wisely to address 
cybersecurity threats and vulnerabilities that are most likely 
to occur and have the greatest potential impact.
    We need close collaboration between government and industry 
participants, rather than finger-pointing. Therefore, any 
cybersecurity legislation Congress adopts should continue the 
strong industry partnership with government agencies in the 
United States and Canada.
    The interconnected North American electric power industry 
and NERC work closely with the Department of Homeland Security, 
DOE, FERC, and Canadian authorities. New legislation should be 
built on this strong foundation.
    We support continued participation in NERC's industry based 
and FERC-approved standards development process. NERC and the 
industry have committed significant resources to develop 
revised and new security standards. We have committed some of 
our scarcest resources, our subject matter experts in 
cybersecurity and system operations, to help develop second-
generation draft standards.
    And it should be limited to the realm of cybersecurity. 
Some would prefer to include new legislation, other national 
security threats as well as cyber threats. SMUD and the 
industry coalition believe that other government entities, both 
State and Federal, have more direct responsibilities for 
national security.
    The electric utility industry addresses physical threats 
through communication with local, State, and Federal law 
enforcement agencies and through our own security measures. 
SMUD has established a strong and long-term partnership and 
communication with the FBI, Sacramento County Sheriff's 
Department, El Dorado County Sheriff's Department, and the 
Sacramento Police Department.
    SMUD and the industry coalition support H.R. 2165. This 
bill sets out a process for the Federal Government to interact 
with the industry in a cybersecurity emergency but does not 
disrupt the existing reliability regime set out in section 215.
    Specifically, the bill provides narrowly targeted authority 
for FERC to issue emergency orders in response to imminent 
cybersecurity threat to the bulk power system, specific 
authority for FERC to issue orders that address the AURORA 
vulnerability, improved communication flows of timely and 
actionable information from government to industry, and 
enhanced responsibility for us to share critical energy 
infrastructure information, enhanced authority for the electric 
power industry to protect and keep critical energy 
infrastructure information confidential and nonpublic and be 
limited to the bulk power system.
    With that, I will conclude my remarks, as time is out. 
Thank you.
    [The prepared statement of Mr. DiStasio follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Markey. Thank you, Mr. DiStasio, very much.
    Before I recognize myself, just so everyone understands 
where we are going here, so we keep these definitions somewhat 
comprehensible for the audience, we are going to be talking 
about the bulk power system in the United States. And the 
Federal Power Act defines that to encompass the large-scale 
power plants and transmission facilities, but the Bulk Power 
Act specifically excludes distribution systems. Those are the 
local systems of lines that bring power from the large 
transmission facilities, that is, from the bulk power system 
out to our homes and out to our businesses. And it also 
specifically excludes the parts of the grid outside the 
continental United States, Alaska, Hawaii, and Guam. So just so 
you all understand what we are talking about here as we get 
into bulk power and distribution systems.
    So the Chair will recognize himself; and I would like, Mr. 
Brown, for you to look at that question of the exclusion of the 
bulk power system from the distribution systems. Because it is 
my understanding that there is no clear dividing line dividing 
the control systems that serve the bulk power system and those 
that serve the distribution system. So how can we possibly 
limit the Federal authority to the bulk power system only when 
it is so interconnected to the distribution system and the fact 
that that does affect people's homes and businesses?
    Mr. Brown. As State regulators, we are concerned with the 
whole system from the top to the bottom, including the bulk 
power system and the distribution system. We have always had 
this dual jurisdictional aspect to our system whereby the 
Federal Energy Regulatory Commission oversees the bulk power 
system, the State regulators oversee the local distribution 
system. For a hundred years, we have worked together--or since 
the Federal Power Act, I guess, 70 years we have worked 
together in maintaining the reliability.
    Mr. Markey. Here is my question. Since Washington, D.C. is 
not under the bulk power system, since New York is not, since 
so much of our military is not, how can you separate them? 
Shouldn't it be integrated as a single authority here to make 
sure that there is one system put in place?
    Mr. Brown. The NERC standards apply to all elements of the 
system from top to bottom. I think when you are talking about 
cybersecurity, we would welcome Federal leadership in 
establishing standards for cyber issues, but I think you need 
to separate----
    Mr. Markey. The NERC standards only apply to the bulk power 
system. Would you want them extended over to distribution as 
well?
    Mr. Brown. I don't think they need to be.
    Mr. Markey. But aren't they intricately entwined with the 
local distribution system?
    Mr. Brown. There is certainly the connection between the 
bulk power system and the distribution system.
    Mr. Markey. Right. Shouldn't we then integrate it to 
ensure----
    Mr. Brown. But that doesn't mean that having a centralized 
authority is necessarily going to be more effective in terms of 
the reliability of the local system.
    I think you need to distinguish between the physical 
assets, which for a long time have been under the dual control, 
and the cybersecurity requirements. And, as I say, in 
cybersecurity requirements I don't think the States would have 
huge problems with the Federal Government setting standards 
that apply throughout the system from top to bottom.
    Mr. Markey. Let me go to you, Mr. McClelland. What do you 
think?
    Mr. McClelland. Anytime that there is two-way communication 
between equipment there is a chance to compromise that 
equipment from a cybersecurity perspective. Deployment of two-
way communication devices at the distribution level creates a 
huge technical challenge to secure that equipment, secure those 
protocols, and protect the assets up and down the line.
    Mr. Markey. Ms. Hoffman.
    Ms. Hoffman. When we are looking at performance measures, 
if emergency authority was provided as you look at the 
legislation that was stated as 2195 and 2165, if it is framed 
as developing performance measures, these performance measures 
could be implemented either at the State level or at the 
Federal level. So one could look at the performance measure, 
and the State utility commissions could consider that as part 
of their responsibility. So the leadership could be provided at 
the Federal level under the form of a performance measure.
    Mr. Markey. Yes. On an ongoing basis, you know, we just 
have to take note of the fact that when we did have that 
blackout several years ago, a problem in Ohio affected Canada 
and New York City.
    Mr. Upton. And Michigan, too.
    Mr. Markey. I was trying to create the upper point, but you 
are right, I should have stopped in the continental United 
States.
    By the way, you mentioned Canada in terms of the 
coordination. Did you include Mexico as well? Are you 
coordinating with Mexico?
    Mr. DiStasio. Mexico to a lesser extent.
    Mr. Markey. But Mexico is in?
    Mr. DiStasio. Yes.
    Mr. Markey. And, Mr. Cook, it is my understanding that over 
2 years after the AURORA vulnerability was identified, NERC 
still has not established standards that would address that 
vulnerability in an optimal way. Why is that? And how can we 
possibly argue that the NERC process is adequate, given this 
delay?
    Mr. Cook. The standards are moving in a direction to 
address some of the vulnerabilities that the AURORA incident 
disclosed, and we are in a constant process of upgrading those 
standards. And that is in the process.
    Mr. Markey. So what is your timeline on completion?
    Mr. Cook. The Commission has directed us to give them a 
timeline for completing the changes to the standards. They 
recently issued an order, and we are to give them that timeline 
by the end of this year. We are in the process of developing 
that timeline right now.
    Mr. Markey. Are the standards that you are developing 
specific to AURORA or optimized to deal with AURORA?
    Mr. Cook. They don't focus solely on AURORA. They are 
looking at a range of the threats that the system is dealing 
with.
    Mr. Markey. OK. I thank you.
    The Chair's time has expired. The gentleman from Michigan 
is recognized for 5 minutes.
    Mr. Upton. Thank you, Mr. Chairman.
    Mr. McClelland, Mr. Brown said in his testimony that the 
CIP standards already in place are adequate for both physical 
and cybersecurity. Do you think that is accurate?
    Mr. McClelland. No, the Commission directed an order 706. 
When we approved the eight standards, we directed modifications 
to every standard. Some are very substantive and significant. I 
mean, I could provide specific examples as to why they are not 
adequate, but they are not adequate yet. There are still 
significant gaps.
    There is also a significant lag as far as compliance with 
the standards. Only the most experienced and largest entities 
that fall under bulk power system jurisdiction have to be 
compliant with the standards today, and only 12 requirements of 
the standards do they have to be complaint with. It is a 
phased-in implementation.
    Mr. Upton. Ms. Hoffman, would you agree with that?
    Ms. Hoffman. Yes.
    Mr. Upton. Mr. McClelland, can you describe for us, the 
members here, as well as the audience, what an EMP attack would 
be? What are the dynamics of that?
    Mr. McClelland. There are two sources of electromagnetic 
pulse. One source is naturally occurring. It is a solar 
magnetic activity that disturbs the Earth's atmosphere, 
magnetic fields, and ionosphere. It rolls them back, if you 
will. During that rollback time, the Earth's magnetic fields 
are disturbed. It collapses back on itself; and that produces 
ground currents, geomagnetically induced currents. Those 
currents travel through the earth; and everything that they hit 
on the bulk power system they wreak havoc on, particularly 
large bulk power system transformers. They will destroy those 
transformers within a matter of seconds if they haven't been 
mitigated against such an occurrence.
    There is also----
    Mr. Upton. No, go ahead.
    Mr. McClelland. There is also manmade EMP, electromagnetic 
pulse attacks. Those generate three separate times of energy 
disbursement. One is termed an E1. It happens within a 
billionth of a second. It is a very high, very strong radio 
frequency type energy burst. The wires and the transmission 
wires and facilities act as antenna. They pick that burst up, 
and it destroys all control equipment.
    Very shortly thereafter, there is an E2 effect, which is 
similar to lightning. Utilities are very well mitigated against 
lightning. However, after an E1 burst, it is really uncertain 
as to how much more devastation it would cause.
    And then, finally, there is the E3 effect, which is the 
first effect I described that happens naturally, every so 
often.
    Mr. Upton. And how difficult is it to build a manmade 
device that would emit these EMPs?
    Mr. McClelland. It is not difficult. For a nation state, 
for a sponsored terrorist organization, it is not difficult. 
And it is getting easier all the time.
    Mr. Upton. And can you tell us about what the cost might 
be?
    Mr. McClelland. I don't have any information about cost. 
For a small--if it is a radio frequency weapon, a small RFI 
platform, those are less than a hundred thousand dollars 
apiece. Those can be portable, and they can be directed--you 
have to be pretty close to your target, but if you are close--
--
    Mr. Upton. Pretty close, within a quarter mile, a hundred 
yards?
    Mr. McClelland. Within hundreds or thousands of feet, 
depending upon the quality of the weapon itself. It is 
certainly possible to put a small portable weapon in a vehicle-
mounted platform and direct that at facilities.
    Mr. Upton. And our bulk power distribution system, it would 
be pretty vulnerable to that type of attack, is that right?
    Mr. McClelland. The Commission doesn't have any information 
as far as what folks have done or haven't done regarding EMP 
mitigation. We suspect there hasn't been a lot of activity 
there.
    Mr. Upton. And, again, that is a physical attack, not a 
cyber attack.
    Mr. McClelland. That is correct.
    Mr. Upton. And, Mr. Brown, as you indicated, you believe 
that H.R. 2165 is the best approach. H.R. 2165 looks at only 
cybersecurity. As I understand it, it does very little for 
physical security. So if what your statement is on page 5, that 
CIP standards already in place are adequate for both physical 
and cybersecurity, how does that comport to an E1 or, 
obviously, E2 or E3 as it relates to the distribution of that 
power across not only New York but all 50 States?
    And that is sort of the crux, as we look at the two 
different bills before us, H.R. 2165, which you said is the 
better bill, does not have physical security. It does not 
include Alaska, Hawaii, Guam, New York, or as it gets to, as 
the chairman said, the distribution.
    I just don't know if you have had access to classified 
reports, as some of us were able to participate last week. Mr. 
McClelland was part of that discussion that we had. But I just 
want to know what evidence you have as you indicate that the 
present standards are adequate.
    Mr. Brown. Well, obviously, I don't have access. And that 
is one of the concerns that we have, is we don't necessarily 
have access to some of the newer threats that are emerging. All 
we can judge on is what we know and see.
    There are a variety of threats to the electric system 
besides EMP. You can take out an electric system in a variety 
of different ways, and that is why we have been trying to work 
with NERC on the broad array of security requirements that are 
necessary to protect the system. And that is why I pointed out 
the difference between a threat and a vulnerability.
    If there is an active threat out there, I think everybody 
needs to know it; and I don't think any of the legislation at 
this point kind of has a mechanism in place that if there is a 
threat that there is a way of sharing that threat with all of 
the State jurisdictional agencies, law enforcement agencies 
that are going to need to address that threat. I am not sure a 
single standard somewhere established in legislation is going 
to be able to solve that problem or a new threat won't arise.
    Mr. Upton. Our time has expired.
    I just ask one quick question of Mr. McClelland; and that 
is, as they see threats that come in, it is too late if they 
are imminent. We have to be prepared. And I would presume that 
is why we need legislation very quick. Correct?
    Mr. McClelland. Right. Right. That is correct.
    Mr. Upton. I know my time has expired.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. McClelland, I want to thank you for hosting me when I 
visited FERC and alerting me to the AURORA vulnerability at 
that time.
    You discussed in your written testimony the challenges 
posed by smart grid technology. In your opinion, are the local 
utilities aware of this vulnerability? And, if not, what can we 
do to enhance that lack of preparation?
    Mr. McClelland. We have an expression inside the Commission 
that the utilities are out in the wild. What that means is that 
they haven't really been brought in and briefed about the 
level, the sophisticated level of threat that could occur with 
cyber vulnerabilities, with two-way communications. I think 
that is evidenced by some of the activity that happens at other 
Federal agencies, Department of Defense, and sophistication of 
the levels of defense that they employ versus a utility that 
may be not as sophisticated in that regard.
    Mr. McNerney. Thank you.
    Mr. DiStasio----
    Mr. Markey. Mr. DiStasio, he is not talking about a utility 
in Silicon Valley. So you shouldn't take that personally, but--
--
    Mr. McNerney. You mentioned that utility sector experts are 
not necessarily cybersecurity experts and lack high-level 
security clearances. Is there a particular path forward to 
remedying that problem that you envision?
    Mr. DiStasio. Well, because of the emerging technologies, I 
will say this has really evolved over time as the electric grid 
has become operated in a more digital way, more SCADA controls 
and so forth. There has been a greater integration of the 
physical operators of the system and the technologists, and we 
actually both participate through the NERC process but within 
our own utilities. And we use what is called a layered defense 
in depth process where we look at people and technology and 
operations, controls that address both physical and cyber 
segregation of our systems, protection of our systems, control 
of information, training, and access to the individuals. So 
that is actually under way in most utilities across the Nation. 
I will say the diversity of our systems leads us not to be able 
to necessarily have a one-size-fits-all way to resolve that 
issue.
    Mr. McNerney. Thank you.
    You know, it seems to me that the real question here is how 
much additional authority is needed to approach this problem.
    Thank you, Mr. Brown, for bringing up the distinction 
between immediate and imminent threat versus vulnerabilities. 
When you look at 2165 versus 2195, 2165 is a little bit more 
specific and a little bit more limited range, whereas 95 is not 
as specific but has a broad range. I would ask anyone now on 
the panel, is there a utility preference for those approaches? 
For which one of those approaches would be preferable?
    Mr. DiStasio. I would like to respond to that.
    From the industry perspective, 2165, as I said in my 
testimony, would be preferential, because I think it is very 
important to distinguish between vulnerabilities which need to 
be dealt with on a continuous improvement basis over time on a 
proactive and a preventative measure versus immediate and 
imminent threats or emergency issues that we need confidential 
information to be able to respond to quickly. And so we think 
that 2165 best addresses that differentiation.
    Mr. McNerney. Any other responders on the panel to that 
question?
    Mr. Brown. Just that, in 2005, the authorization for NERC, 
I think a lot of progress has been made along the way in trying 
to address the vulnerability question, trying to set standards 
for the vulnerability question.
    I think what makes the threat issue is where we believe the 
focus might be best served for this legislation, is that there 
be more--an ability, a process established by Congress that 
will say, if there is an imminent threat, exactly what the 
process will be in terms of disseminating that information to 
State regulators, utilities on a confidential basis so that we 
can all address this together. I think that is the most 
important part of the legislation. That kind of reinventing 
what has already been done in 2005 and trying to move it again 
may be a step backward instead of a step forward.
    Mr. McNerney. My final question, if I have a little bit of 
time, Mr. Cook, I was involved in setting standards in my prior 
life; and it is kind of an interesting process to get people to 
agree on these things. So how is that working out? I mean, are 
your participants finding ways to agree on these things and 
then the broader utility network buying into those agreements? 
Is that what is happening?
    Mr. Cook. As a general matter, that is right.
    Mr. Markey. The gentleman's time has expired. The witness 
will please try to answer the question.
    Mr. Cook. Thank you.
    The industry has stepped up and is providing experts and is 
working through the process. As I mentioned earlier, it is a 
continuous process of improving these standards, and we are 
making that progress.
    Mr. Markey. Thank you.
    The gentleman's time has expired.
    The Chair recognizes the gentleman from Texas, the ranking 
member of the full committee, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman.
    I am sitting here thinking what a perk it is to have you 
chairing a hearing with FERC and NERC, while the terrorists are 
smirking and lurking around. It is somewhat of a Herculean 
effort on your part. We appreciate it.
    Mr. Markey. Excellent. I will try to respond before the end 
of your comments.
    Mr. Barton. You are going to have to work to beat that. Of 
course, I had 10 or 15 minutes to think about it.
    Mr. Markey. I think we should give the gentleman his full 5 
minutes and note the incredible----
    Mr. Barton. I am going to work on SMUD, too. We will see if 
we can get something done that is not vulgar on that.
    Anyway, I would ask Mr. McClelland and Mr. Cook--or Dr. 
Cook--to comment on the relationship between the bulk power 
system and the distribution system and if you feel that the 
Federal Government should preempt the States in looking at this 
issue with regard to the distribution system.
    Mr. McClelland. I can start.
    The bulk power system is generally defined as 100,000 volts 
or above. The legislation EPAC 2005 required the Commission to 
approve standards--review and approved standards for the bulk 
power system. However, it is defined by the regions. And so a 
region that chooses to redefine the bulk power system as, say, 
200,000 volts and above can exempt 60 or 70 percent of the 
transmission facilities within that region by redefining the 
term ``bulk power system.'' So I think it is important to make 
the distinction that it is not just distribution that would be 
excluded under bulk power system. It may also be what is 
traditionally considered transmission facilities that serve 
major metropolitan areas that could be excluded by that 
definition.
    Now, back to the term ``distribution facilities.'' It 
does--the legislation does exclude facilities used for the 
distribution of local energy, which would be the facilities 
that would capture, say, the meters on the homes, smart meters, 
and any cyber facilities where appliances within the homes that 
communicate to the meters that may communicate then back to the 
transmission systems. And from an oversight perspective, from a 
reliability standards perspective, it is extremely difficult to 
regulate that communication without that ability, without that 
jurisdiction.
    Mr. Barton. Mr. Cook.
    Mr. Cook. For us, it is a matter of priorities, that the 
consequences are most profound at the bulk system level. And 
that is where our focus has been, and that is where we believe 
the focus needs to be.
    Mr. Barton. Would the witness from the Department of Energy 
want to comment on that?
    Ms. Hoffman. Any leadership that FERC provides in 
developing performance measures to protect the reliability of 
the bulk power system could be applicable to the distribution 
system if the State PUC regulators decide to choose and follow 
them.
    Mr. Barton. Mr. Chairman, I am going to yield back. I 
think, to be really serious, this is a very serious hearing, 
and I am glad you are doing it. I would hope, though, that we 
could legislate at the Federal level without impinging too much 
on the local or the State level for distribution systems. I 
would be reluctant to be too bold in preempting the States. But 
I think this is an important issue, and I am very glad that you 
and Chairman Markey are addressing it in the way that you are 
addressing it.
    And with that I yield back.
    Mr. Markey. Thank you, Mr. Barton, as well. I thank you. 
You have drawn our attention to this issue in another way that, 
for better or worse, there is a quirk that NERC and FERC do not 
have----
    Mr. Barton. I almost used quirk.
    Mr. Markey [continuing]. Do not have that jurisdiction; 
and, as a result, some jerk could hurt the system. And we have 
to close that regulatory black hole here.
    Mr. Barton. Great minds think alike, Mr. Chairman.
    Mr. Markey. I am not sure other people are viewing us that 
way. But I thank the gentleman.
    The Chair recognizes the gentlelady from Wisconsin.
    Ms. Baldwin. Thank you, Mr. Chairman.
    One very specific question and hopefully followed by a 
broad, open question.
    In our briefing memo from committee staff, we have our 
attention pointed to physical vulnerabilities of the grid. And 
I am just going to read you an excerpt.
    For example, large transformers, essential to the reliable 
operation of the grid, are manufactured outside of the United 
States; and replacement may require up to 2 years. A limited 
number of spare large transformers are available within the 
United States; and industry has developed a program, the Spare 
Transformer Equipment Program, or STEP, another acronym, 
providing for sharing of such assets in the event of a 
terrorist attack. Any policy recommendations of how we can--and 
I will ask you, Ms. Hoffman, recommendations for how we could 
be more prepared in the event of an emergency?
    Ms. Hoffman. You bring up a very, very important point, 
that critical to the reliability of the bulk power system is 
the recovery of that system. So an important aspect of that is 
the focus on manufacturing and manufacturing capabilities in 
the United States. So as we look at developing protection 
mechanisms, we must recognize that some parts of the grid will 
go down. So another key aspect is how fast can we restore? And 
that is directly to your point, which is very important.
    Ms. Baldwin. What is our domestic manufacturing capacity 
and what are we doing to bolster it?
    Ms. Hoffman. For large transformers, very limited. In fact, 
I think there is only one company that will be looking at large 
transformers.
    Ms. Baldwin. Thank you.
    On a much broader question for all of you is the issue of 
communication and information exchange. And we have had 
testimony from the State perspective, from the NERC perspective 
of the frustration being that much of this is classified and 
tightly held and needs to be communicated to actors with the 
ability to prepare and plan; and yet we have sensitivities with 
getting certain information out. We have been grappling with 
this as a committee on previous legislation relating to 
chemical plant security, with water treatment plant security, 
now in this arena.
    I know it is a very broad question, but I would like to 
hear your perspectives on how we get the information that we 
are learning at the Department of Energy and FERC to the hands 
of the people who actually need to plan and help us prepare, 
while protecting that information carefully. And we haven't 
even talked about ISOs, but they are another level of all of 
this.
    And if you wouldn't mind, just starting with Mr. McClelland 
and going through the panel, that would be helpful.
    Mr. McClelland. One of the problems we had with the AURORA 
advisory, the advisory went out by NERC in June, and the 
Commission was asked to do follow-ups to determine how 
effective the mitigations were put into place. We couldn't 
protect the information, or felt that we may not be able to 
protect it from a FOIA request, and so we ended up asking for 
industry volunteers and reviewed their plans one at a time 
without taking any information back to the Commission. This 
information transfer, the inability to protect the information, 
severely impeded folks' ability, the entities' ability to 
implement mitigation strategies.
    Now, we saw a whole gamut. I don't want to say that was the 
only reason. There were some folks that were very well 
mitigated. There was good old-fashioned American ingenuity that 
had been deployed, but there were other entities that did 
nothing, and additional information didn't appear as if it 
would have helped. So we have asked that any additional 
authority that be conveyed provide the ability for the 
Commission to protect that information.
    Ms. Baldwin. Briefly, Ms. Hoffman.
    Ms. Hoffman. Briefly, point one, clearances. I think there 
has to be a wider, greater distribution of appropriate levels 
of clearances across the electric sector. Two, we need to 
protect the information from FOIA requests in accordance to--
very similar to maybe what DHS does with their Critical 
Information Act.
    Ms. Baldwin. Mr. Brown? Any comment on the communications 
issue?
    Mr. Brown. We deal with confidential information at the 
State level all the time in terms of information regarding the 
bulk power system. I think we are well prepared and positioned, 
if we get the information, to protect it and use it.
    The electric systems run on contingencies all the time. 
That is how the electric system is run. It is always planning 
for the worst thing that could happen; and that, if it happens, 
the system will stay up because there is adequate backup. 
Obviously, the more information available about threats, the 
better that contingency system can work.
    Ms. Baldwin. Mr. Cook.
    Mr. Cook. We have been successful in the last year in 
arranging for cleared briefings for some CEOs to have access to 
some more of that information. More of that needs to happen.
    I agree with Ms. Hoffman that the clearances program needs 
to be accelerated, and there needs to be a way that this 
information can get out to folks without them having to make it 
public. The State Open Records Acts sometimes get in the way of 
that, because anything that some State agencies get has to be 
made public then.
    Ms. Baldwin. Mr. DiStasio.
    Mr. DiStasio. I would agree with Mr. Cook. I think that is 
an important step for Congress to consider. Because, right now, 
without adequate clearance, the information we might get would 
be limited and not applicable to a pending emergency or 
vulnerability that we are the ones responsible for addressing. 
So we certainly support additional clearance levels to make 
sure that threats can be dealt with in a timely manner and 
confidentially.
    Mr. Markey. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman.
    If you all would just, if you have got a piece of paper, 
scribble down solar storm, radio frequency, EMP, and then 
cyber. And then my first question--there is two questions--I 
would ask you to prioritize the threat as you see it in those 
four categories, and then I would ask you to prioritize costs 
of recovery.
    And kind of following up on my opening statement about 
where our focus should be, I think sometimes we don't really 
know what is the biggest threat, what is the biggest cost 
recovery.
    And so if I could start with Mr. McClelland and just go 
down the line, if you all could do that for me. And if you 
don't want to, you don't have to, but I mean, if you could, 
that would be helpful.
    Mr. McClelland. That is a difficult question.
    Mr. Markey. Who wants to be a millionaire? If you can rank 
them one, two, three, four, and then we can fill it in.
    Mr. McClelland. Tough to do. Cyber I had as one; solar 
storms I have as two. And, in fact, solar storms could be one 
because they are inevitable. We are going to get another storm. 
We are going to get another 1921 event, which has been called a 
one-in-100-year storm. That is going to happen. And, if it 
does, it will be devastating consequences.
    RF weapons and EMP would be the next two on the list.
    Mr. Shimkus. Was radio frequency third or EMP third?
    Mr. McClelland. I put RF weapons third only because they 
are so affordable and easier to tote, and EMP weapons fourth.
    Mr. Shimkus. Thank you. And I will come back to the costs.
    Ms. Hoffman. I did cyber as one, RF as two, solar storms as 
three, and EMP as four.
    Mr. Shimkus. Great.
    Mr. Brown. I want to emphasize cyber as one. These people 
are much more of experts and able to judge the vulnerabilities. 
But we are about to introduce--perhaps the President has 
already announced--billions of dollars of new moneys to allow--
--
    Mr. Shimkus. Let me stop you there, because I do have that. 
It is a Washington Post article today. President Obama plans to 
unveil Tuesday $3.4 billion in grants to smart meters, updated 
transformers, and other devices. Is that where you are headed?
    Mr. Brown. Yes, exactly. And the point is there is going to 
be a whole new system of two-way communications introduced to 
the electricity industry that really----
    Mr. Shimkus. Does that make that more secure or less 
secure?
    Mr. Brown. It can be both. It should be more secure. More 
real-time information about the system should be good. But it 
introduces new vulnerabilities to the system, which if not 
protected is bad.
    Mr. Shimkus. All right. I have limited time. So you talked 
about cyber, so cyber--what is your priority?
    Mr. Brown. Cybersecurity would be, far and away, number 
one. I was going to say two, three, and four I am not really 
that capable of assessing.
    Mr. Shimkus. OK. Great.
    Mr. Cook.
    Mr. Cook. I would put cyber at a very high number one, 
solar after that. And as between RF and EMP, I am not sure.
    Mr. Shimkus. Great.
    Sir.
    Mr. DiStasio. I would also put cyber number one. And, 
frankly, I would like to consult with the industry. Because I 
put two, three, and four again----
    Mr. Shimkus. OK. Let me go back to cost of recovery, if any 
of you could do that based upon these attacks.
    Mr. McClelland. EMP and RF weapons I would put as number 
one. And I would rate them the same because it is the same 
mitigation for either of those two. Cyber I would put as number 
two. That is highly dependent, though, on what the utility has 
or has not done. And solar I would put as number three as far 
as the least-cost alternative.
    And I do want to add that in the original grouping I don't 
have these--although I ranked them for you, I don't have them 
very far apart.
    Mr. Shimkus. Yes, thank you. And I am going to stop there 
because I am on limited time.
    I want to highlight that on April 21st, 2009, a study by 
the National Academy of Scientists found the U.S. could suffer 
one to two trillion in damages as a result of EMP; and it would 
take four to 10 years to fully recover. By contrast, Hurricane 
Katrina inflicted $150 billion to $300 billion in damage. So 
this is my fear or concern.
    I have a wind generating power plant that went down because 
of an Internet connection, and it went down for 10 or 15 days. 
Bespeaks to the greening of America and the reliability of 
electricity.
    The other issue that I wanted to address, although we have 
kind of covered it, this also speaks of my opinion, everybody 
knows I am a supply guy here on this committee, more generation 
versus less. If we limit the ability for us to increase 
generation in America, we increase the ability to put ourselves 
at risk when any one, two, or three of these are targeted. So I 
would be in support of a position that says let's build more 
power plants, not less.
    And thank you, Mr. Chairman, and I will yield my remaining 
time. Thank you, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Georgia, the 
sponsor of the bill, Mr. Barrow.
    Mr. Barrow. I thank the Chair.
    The table has pretty much been set for the issues that we 
are going to be taking under deliberation in negotiations going 
forward on this. But one thing that hasn't been talked very 
much about, and it is an issue that is very much on the minds 
of the folks who are going to be tasked with following or 
implementing any policies that we are going to be authorizing 
the implementation of, and that is with the electrical 
industry, the generators and the distributors.
    So I want to talk just briefly, at least kind of set the 
stage for those discussions by asking if any of you all can 
identify any issues of disparate treatment or disparate impact 
that might result from the kinds of rules that we are all 
talking about trying to create and authorize here? Can you 
foresee, looking down the road, that there might be any 
disparate impacts in terms of some of the mandates that might 
be forthcoming? Impacts that might be disparate in terms of 
whether or not you are a big guy, a big for-profit utility 
company as opposed to a little guy, an EMC, whether any 
regional impacts that you can see as a result of the mandates 
that we are contemplating here.
    We all want to do the right thing, and I know the 
generators and distributors all want do the right thing. But I 
am sure that as there are staggering costs we are trying to 
avoid, there are going to be some costs we are going to incur 
along the way.
    So the first thing I want to ask is, can anybody here on 
the panel give us some idea as to the kinds of costs and 
especially issues of equity and fairness, disparate impacts 
that might result from any of the mandates we are talking about 
today?
    Mr. Brown, I think you are sort of on the hot seat 
representing the utility commissioners of the country. Why 
don't you go first?
    Mr. Brown. Sure.
    I am not sure about disparate impacts, but I think you need 
to put this into a context. If there is a federally mandated 
cost that we have got to recover from our rate payers, it means 
perhaps we won't be able to do something else that we have been 
trying to do.
    Mr. Barrow. An opportunity cost, in other words.
    Mr. Brown. Right now, at the State level, we are collecting 
money for renewable portfolio standards. Over 30 States have 
that. Energy efficiency programs, infrastructure needs, new 
transmission. So there is a lot of pressures already on 
electricity rates.
    Mr. Barrow. What kind of costs do you foresee? What kind of 
magnitude?
    Mr. Brown. Billions of dollars on a State level, tens of 
billions of dollars on a national level. At the same time, 
customers that are over 60 days in arrears on their bills--in 
New York over $600 million is in arrears. That is up 25 percent 
from a year ago. So just the rates that we have today, people 
are unable to be able to pay it.
    So I guess my concern is the more mandates that we get 
requiring expenditures is going to mean dollars that we are not 
going to be able to collect to do other things that we really 
want to do maintaining the reliability, safety, and efficiency 
of the system.
    Mr. Barrow. Mr. McClelland, Ms. Hoffman, do you all have 
any thoughts to suggest along these lines? What do you foresee?
    Mr. McClelland. As far as disparate treatment, the 
generators that don't fall under tariffs before the Commission, 
any generators that have, say, cost-based contracts or 
contractual arrangements would not necessarily qualify for 
security upgrades for cybersecurity or for, say, EMP 
expenditures. So that would have to be addressed.
    There may be--and I won't speak to the particulars, but 
there may be utilities or entities under cost freezes. They may 
be under rate freezes within different States. And that 
treatment or security upgrade would have to be considered by 
the State commissions, especially if it was a security upgrade 
necessary for distribution systems, say, smart metering 
upgrades.
    And as far as whether or not we incur the costs, I think 
the threat is here. The vulnerability is here, and the threat 
is here. This is a different world. There are entities that are 
intent--they believe that the bulk power system in the United 
States, the electric grid, is a legitimate military target; and 
they have set their sights on that system. And so whether or 
not--the costs are just going to have to be incurred. We are 
going to have to address the issue.
    Mr. Barrow. Any way you slice it, the costs of prevention 
are a whole lot smaller than the costs of inaction is what you 
are saying.
    How about you, Mr. DiStasio.
    Mr. DiStasio. I would just want to add, from the industry 
perspective, the actual NERC regime that was enacted in 2005, 
we have already added significant compliance resources and 
industry experts to that at a cost of a fair amount of money. 
And one of the reasons that we are actually supportive of the 
approach that you are taking to this is it does tend to 
appropriately focus this on emergency threats, which to me that 
represents a much smaller cost.
    I think I mentioned the fact that we have 400 miles of 
transmission but 10,000 of distribution, which is not uncommon 
for many utility systems; and if you look at the expansion of 
taking it down to lower probability assets in the distribution 
system, it adds significant costs without certainty that that 
is going to have the same disruptive effect as the bulk power 
system.
    Mr. Barrow. Thank you.
    My time has expired. I would like Ms. Hoffman to feel 
welcome to respond, but my time has expired. Thank you, Mr. 
Chairman.
    Mr. Markey. The gentleman's time has expired, but real 
quick.
    Ms. Hoffman. Real quick the only comment I would add is one 
size reliability does not fit all. Defense Department, 
manufacturing industries require higher level of reliability 
than, say, residential customers or what they are more willing 
to accept. On-site generation, micro grids, UPS systems are 
alternatives to look at as we consider reliability.
    Mr. Markey. Great. Are there others who wanted to say a 
word? No.
    The gentleman's time has expired.
    Mr. McClelland, do you want to say a word here?
    Mr. McClelland. I had an opportunity.
    Mr. Markey. OK. Good. Great.
    The Chair recognizes the gentleman from Texas, Mr. Burgess.
    Dr. Burgess. Thank you, Mr. Chairman.
    And, Chairman Brown, I was particularly intrigued by your 
comments, how much are we willing to pay for marginal increases 
in security? And obviously that is the fine balance that we 
have here today. And I don't know if I have a--conceptually, if 
I have a good idea of the number of dollars that it would take 
to harden our grid against an electromagnetic pulse, either 
whether it is generated by natural occurrences, by a solar 
flare, or a legitimate military target, as was outlined by Mr. 
McClelland.
    Can you give us some sense of the task ahead? If we were to 
have a grid that was completely impervious to anything versus 
what is actually practical, what are the cost differentials 
that we are talking about?
    Mr. Brown. We have infrastructure needs at State regulatory 
levels of billions of dollars just to maintain the existing 
aging system. The idea that you could make it impervious I 
think is tens of billions of dollars of investment. It is an 
entirely new and different way of doing the system.
    Earlier, we talked about the bulk power----
    Dr. Burgess. Can I stop you there?
    Do we, in fact--does the technology exist to do that if 
dollars were not an issue? Do we have the technical know-how to 
do that?
    Mr. Brown. It is a matter of duplication. You can duplicate 
a lot of the system over and over and over again so that 
technically--I will leave it to some of the experts whether it 
is completely impervious, but that is a lot of money.
    And this is all a cost-benefit analysis. I think that is 
what regulators do all the time, is cost-benefit analysis. I 
could gold-plate the electric system in New York and make sure 
that we don't have as many outages, but the costs might be two 
to three times--the rate payers, they would find it 
unaffordable to pay the rates that are out there.
    It is always a balance between reliability and cost, and 
you can't just look at cost because you would have an 
unreliable system. But you can't just look at liability, 
because you will have a gold-plated, expensive system. Tough 
balance.
    Dr. Burgess. On balance, the legislation that is the 
subject of this hearing, do you think we are threading that 
needle appropriately with trying to balance those two ends?
    Mr. Brown. One of the concerns I had about some of the 
legislation was it is reaching down all the way into the 
distribution system, which was the chairman's first question.
    And I will note that, for example, the three major 
blackouts we have had in New York City, ranging from 1965 on, 
were all bulk power system disruptions, problems that the bulk 
power level got to the local level. It wasn't problems with the 
local system.
    So spending a lot of money on the local system and then 
perhaps sacrificing some things being done on the bulk power 
system may not be a cost-effective way of meeting the concern. 
That is why we would like to see the focus on the bulk power 
system, and we think the work that began in 2005 with NERC is 
the appropriate way to be moving towards that goal.
    Dr. Burgess. And yet I mean there are technologies 
available today that weren't available 5 or 10 years ago. And 
those technologies do, as I think you pointed out in your 
testimony, add increased vulnerabilities in different ways.
    With this legislation, are we taking an appropriate over-
the-horizon look at what may be available to electricity 
consumers in the future in providing them the protections? Or 
are we looking at a situation where we may have to be back here 
in 5 or 10 years, 15 years and revisiting this entire issue? Do 
we have the appropriate eye on what is coming down the pike for 
the future?
    Ms. Hoffman. In order to prevent that, I think we need to 
do a continual risk evaluation of what the new threats are and 
the new concerns are, as well as what the new technology is so 
that we can keep feeding and cycling through that loop so we 
stay ahead of the game.
    Mr. Brown. And that is why I also emphasize cybersecurity. 
That is the new element that is coming into the system. The 
smart grid two-way communications, we really need to get that 
secure. I think that is the most important focus at this point 
in time.
    Dr. Burgess. I was just back home. There was an effort to 
go to smart meters, and then they turned out to not be in 
compliance with what we said they ought to have. And so you 
have got a company down there now that is asking its rate 
payers to pick up the millions of dollars for meters that 
aren't going to be able to be used. We do have to be careful 
how we implement these things, because we can end up costing 
people a lot of money for very little return.
    And at the same time, as Mr. Shimkus points out, the far 
end of the scale is we may be asking for hundreds of billions 
of dollars of investment to protect us against trillions of 
dollars in loss and decades of recovery.
    So thank you, Mr. Chairman. I will yield back.
    Mr. Markey. Great. The gentleman's time has expired.
    The Chair recognizes the gentleman from Utah, Mr. Matheson.
    Mr. Matheson. Thank you, Mr. Chairman.
    I have heard some different opinions about whether or not 
utilities receive specific actionable intelligence from the 
Federal Government regarding imminent cyber threats. And so I 
was wondering--I would ask all the witnesses or anyone to 
respond--what your thoughts are about this and do you think 
utilities should receive more clearances or more information?
    Mr. DiStasio. I could address that from the industry 
perspective. To date, we have not received any notifications or 
specific actionable intelligence relative to imminent threats. 
We did have the information that has been discussed regarding 
AURORA. There were 30 utilities, as was mentioned, that worked 
on a voluntary basis to try to understand and mitigate that.
    I do believe we do need additional clearance. Because while 
there are many reports out there that there are significant 
threats and while there have been briefings that suggest that 
these things are real and imminent, the utility industry to 
date has not been notified with any specificity in order to 
best mitigate those or prevent them. We do work through the 
NERC standards on a prospective basis, but we do think that 
additional confidential clearance and additional ability to get 
additional Federal authority to provide specific and actionable 
information would be very helpful.
    Mr. Matheson. OK. Thanks. Yes.
    Mr. McClelland. I guess I want to be very clear right up 
front, the NERC standards are wholly inadequate to address 
threats to national security through the power grid. The NERC 
standards, on average, take 4 years to develop. Modifications, 
many different iterations. They are done in an open and 
inclusive forum. So not only is the reason for the standard 
published but also all the proposed mitigation strategies, and 
bad guys have access to the Web sites and can look at those 
proposed mitigations.
    So the NERC standard--the existing standards that are in 
place, the Commission has identified substantial security gaps 
in those standards, directed modifications, and are awaiting 
the NERC process to finish the modifications.
    As far as information to utilities, yes, I agree utilities 
do need more specific information to be conveyed. But it is not 
just the information. In the AURORA advisory which was issued 
in June, there were very specific mitigations that were 
requested. An advisory is voluntary. There is no ability for 
any Federal agency to direct utilities to take action to 
protect their systems in the event of a threat or a 
vulnerability. So the advisory was voluntary, and we saw 
compliance that wasn't great. We didn't see great compliance 
even with entities that understood the issue. However, everyone 
could have benefited by additional information.
    Mr. Cook. Just to answer your question, the feedback we are 
getting is that more specific actionable intelligence 
information is what is needed. That is the feedback we got on 
AURORA. There were limits on what could be said. So it is a 
combination of clearances to the industry and figuring out ways 
of having--arranging a classification of information such that 
it can get out. Both of those are important.
    Mr. Matheson. OK. I appreciate that.
    Mr. McClelland, I was going to ask you if the new Federal 
authority that issues cyber emergency orders is too broad. That 
could also cause some other unintended consequences. Do you 
have thoughts about where we get the sweet spot on this?
    Mr. McClelland. Yes, that is very difficult. The authority 
has been called extraordinary. It is extraordinary authority. 
And the Commission is not an intelligence agency. Some may say 
we don't even have intelligence. But we don't collect 
intelligence. So we would depend on other agencies such as DOE, 
DHS, DOD, CIA to bring vulnerabilities and threats that would 
endanger national security, use our authority then to order 
mitigation. It is very specific mitigations that may be 
targeted at very specific utilities for a limited period of 
time. That is much more targeted and specific than, say, a 
standards action might be.
    Mr. Matheson. OK. And can I ask you, do you have thoughts 
about steps the Federal Government could take to--you heard 
questions about costs from other members. Do you have thoughts 
about how the Federal Government could work with utilities to 
help mitigate the cost impact relative to the risks that we are 
trying to address?
    Mr. McClelland. Yes. We had the benefit of reviewing with 
the utilities. We asked for 30 volunteers and did get 30 
volunteers on the AURORA mitigation. We had the benefit of 
spending a day with each of those utilities, and there were 
some very good ideas that came from the utilities back to the 
Commission. So it would be an iterative process.
    The Commission would have to move quickly. If it was a 
vulnerability or threat that endangered national security, we 
would issue that. There would be a hearing process or a back-
and-forth process where alternative practices could be proposed 
by the utilities to accomplish the same purpose but 
nevertheless not delay the mitigation being put into place to 
protect the economy, its citizens, and the military of the 
United States.
    Mr. Matheson. Thank you. I yield back, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman.
    So I want to see if I have this right. Basically, folks in 
the power industry don't get the information of the specificity 
of the threat that they are supposed to figure out how to deal 
with. Right? I mean, isn't that what you are saying?
    Mr. DiStasio. What I said was, to date, there has not been 
any specific actionable information provided. Not to say there 
aren't vulnerabilities, but there has not been an individual 
threat that has been communicated beyond this AURORA test.
    Mr. Walden. And yet we know there are, Mr. McClelland, to 
the extent you are able to talk about this, that there are 
fairly specific threats. Well, we all know every computer it 
seems like is being attacked by somebody at some point. And so 
how do we bridge this? It would seem to me with so much on the 
line that there must be a way that we can communicate the 
information you need to understand how serious this is and to 
cope with it. I understand you understand how serious it is. 
How do we bridge that?
    Mr. DiStasio. I want to be very clear on one point. The 
utility industry has been dealing with vulnerabilities maybe 
that originated from reliability and now much more security and 
cyber-based for many, many years and will continue to do that. 
So we are not awaiting information to do that. However, if 
there is a gap, it is around this issue that there is a lot of 
discussion around pending threats that seem to be more imminent 
that have not been communicated; and we just need to understand 
what those are so we can best mitigate them on the ground 
within our systems for the consumers.
    Mr. Walden. And is the issue here that you want to know the 
very timely, specific threat, as in X organization is going to 
do Y to your system, or is it--is there anything you are not 
doing now to protect your system that that kind of information 
would help you protect?
    It would seem to me it is pretty clear where the threat--
not where it comes from from a specific individual or 
organization necessarily, but there are only so many ways to 
get into your system and do damage. And I guess that is the 
question. You would think you would know what those ways are 
and be set up to mitigate, right?
    Mr. DiStasio. And we do believe that we are in a position 
to best mitigate. I mentioned before that we use this layered 
approach----
    Mr. Walden. Right.
    Mr. DiStasio [continuing]. To deal with these. But to the 
extent there was something that is yet not known to the 
industry that needs to be communicated, we would benefit by 
having specific and actionable information on that.
    Mr. Walden. So let me go to our government witnesses here. 
Without getting into specific things we can't talk about here, 
are the actions they are talking about they are doing, the sort 
of physical actions to deal with management of their systems 
and prevent against those threats, do they have as much 
knowledge as they need to know, need to have to deal with it 
without knowing specific time, place, type of attack?
    Mr. McClelland. The distinction between classified and 
unclassified is who is the actor and what specific systems are 
being targeted.
    The vectors back as far as the AURORA advisory, for 
instance, there was sufficient information and detail within 
that advisory for folks to be able to perform mitigation 
actions. And that advisory was not developed by the Commission. 
It was developed by DHS, DOE, and NERC and then issued to 
industry.
    I think part of the question here is, is there a central 
agency that is responsible to get the information to the 
industry and then can hold industry accountable? Right now, all 
that we have is we have a coordination and a great partnership 
with DOE, DHS, and industry. But the advisories, the 
information that is conveyed is voluntary in nature.
    Mr. Walden. And is it also your sense that those 
advisories, that information, those recommendations are not 
being acted upon to the extent they need to be acted upon? In 
other words, the systems aren't being upgraded or modified to 
deal with the threat, and they should be fully aware of what 
that threat is absent the classified piece of who it is and 
specific targets?
    Mr. McClelland. Right. Congress asked the Commission to 
verify, for instance, the compliance with the AURORA advisory. 
And, on that basis, I would answer the question that, no, 
compliance is not sufficient. The Commission reached the 
conclusion that only if it can be compelled would we be able to 
assure that compliance has been executed for that.
    Mr. Walden. Mr. Brown, let me give you the last 14 seconds.
    Mr. Brown. The more information the better. I will use New 
York State as an example. The single largest contingency we 
plan for is a 1,200 megawatt nuclear power plant going down, 
because that is our single largest worst thing that could 
happen. And at all times they maintain what is called spinning 
reserves, so if that plant goes down, everything is cool. Then 
they figure out the next biggest contingency and start planning 
for that.
    The more information the more you can do those 
contingencies and be prepared for what happens to your system. 
Without the information, without a specific threat, they are 
going to be operating as if the situation was normal. And that 
is where I think you become most vulnerable at that point, when 
you are not prepared for two or three things happening at once, 
which if you knew that there was a threat of that you could 
plan your system around it.
    So that is why the control area is even more important than 
the utilities when it comes to this. The utilities maintain 
their little footprint. But especially in the Northwest and in 
the Northeast, there are larger control areas that are looking 
at the system as a whole; and the larger a system you are 
looking at, the more contingencies you can use to address any 
problems that develop.
    Mr. Walden. OK. My time has expired. Thank you very much 
for your testimony.
    Mr. DiStasio. Mr. Chairman.
    Mr. Markey. Mr. DiStasio, yes.
    Mr. DiStasio. I would like to make one follow-up.
    The industry does not agree that the information was 
specific and actionable, and what we would like to do is submit 
something for the record for the committee's benefit.
    Mr. Markey. OK. That would be very helpful, as this hearing 
has been.
    [The information appears at the conclusion of the hearing.]
    Mr. Markey. We are going to focus very keenly in on all of 
the issues that have been identified here today. It is not lost 
on the committee that in a recent survey by the NERC of the 
generation owners in America that only one-third of them could 
identify a single critical asset to which the NERC cyber 
standards would apply. And so that, in and of itself, says 
something about this issue, that only one-third of all 
generators in America felt that they had any critical assets at 
all that should have protection.
    So there is a big gap here. We have to find a way of 
closing it. And I think today you have really helped us to 
shape kind of the challenge for the committee: bulk power 
system versus the distribution system, cyber threats versus 
physical threats, emergency authority versus standards being 
set. So we have to walk through each of these issues, 
illuminated by the testimony that you have provided for us here 
today.
    We thank all of you very much for your testimony. We want 
to stay very close to all of the stakeholders in this 
discussion so that we can ensure that we make the right 
decision in terms of the legislation, and we want to invite all 
the members of the committee as well to work with us so that we 
put together the best possible legislation.
    The gentleman from Texas.
    Dr. Burgess. Mr. Chairman, I wonder if I might just ask one 
additional question while we are all gathered here.
    Mr. Markey. The gentleman interrupted the chairman's 
concluding statement in order to make that unanimous consent 
request. So, without objection, the gentleman will be 
recognized to ask one question of the panel.
    Dr. Burgess. And I apologize, because I thought it was a 
soliloquy. I didn't realize it was the concluding statement.
    On the issue of the----
    Mr. Markey. When Chairmen Tauzin and Barton used to utter 
them, it was almost as if it was coming down from Mount Sinai 
as the 10 Commandments; and so I understand the different 
perspectives actually orient members differently when they hear 
the person with the gavel speaking.
    Dr. Burgess. It was just a general knowledge question on 
the issue of the solar interference.
    Mr. McClelland, I guess this is for you. A couple of years 
ago, when I was working with the pilots union and flight 
attendant unions on trying to mitigate their exposure to in-
flight radiation, I got the impression there was a predictive 
ability to these. Are we able to predict with any accuracy the 
sudden burst of solar activity?
    Mr. McClelland. That is an excellent question, and it 
speaks to--I have had the same question sort of posed a 
different way: If the Commission did have emergency authority 
to be able to order mitigations against, say, solar magnetic 
activity, how could it exercise that when the warning would be 
so little?
    There is a satellite deployed, it is the ACE satellite, 
that gives us about 15 to 30 minutes of warning for solar 
activity. And, in fact, some of the most massive solar storms 
in history have been with little or no sunspot activity. So 
sunspot activity is not a good predictor of the magnitude of 
solar storm that might occur. Fifteen or thirty minutes would 
be wholly inadequate unless the Commission had ordered 
mitigation plans be put into place first.
    For instance, the EMP Commission said that a good way to 
mitigate against E3, this effect, would be to put a resistor in 
series with the transformer, maybe even a capacitor. Those 
could be put into place with 15 to 30 minutes. As long as the 
entities were practiced, they could be given that notice. And 
the thought would be that they will get more and more time, and 
they could switch those in to mitigate.
    Dr. Burgess. Thank you, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired.
    We thank all the witnesses again. The big solar 
announcement today, of course, is that the President is down at 
Florida Power & Light making this big announcement about solar 
technology in Florida and its interrelationship with the smart 
grid. So, obviously, that focuses us on solar, on smart grid, 
on making sure we build this out correctly. Because obviously 
in this new distributed energy world that solar presents we 
need to continue to think through. But my congratulations to 
Florida Power & Light for that big breakthrough today with the 
President.
    And, with that, this hearing is adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
